Executive Report


Return to the USDOJ/OIG Home Page


Office of Community Oriented Policing Services
Grant to the Federal Heights Police Department
Federal Heights, Colorado
GR-80-00-014
June 12, 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Federal Heights Police Department (FHPD). The purpose of the grants is to enhance community policing.  The FHPD was awarded a total of $450,000 to hire six new officers.

We reviewed the FHPD's compliance with seven essential grant conditions.  We found the following grant conditions acceptable: grantee's budgeting practices, hiring of officers, local matching funds, planning for retention of officer positions, and community policing activities.  However, we found weaknesses in two other areas, as identified below.  As a result, we question $7,401. 1

Reimbursement requests contained unallowable costs totaling $7,401.

	Financial Status Reports were not always accurate or submitted timely.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I. 



Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.